os
I

C@OCKLE

. E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 -
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1599

JOHN DOE 7, JANE DOE 7, JUANA DOE 11,
MINOR DOE 11A, SEVEN SURVIVING CHILDREN
OF JOSE LOPEZ 339, AND JUANA PEREZ 43A,
Petitioners,

Vv.

CHIQUITA BRANDS INTERNATIONAL, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF NATIONAL
CRIME VICTIM LAW INSTITUTE AS AMICUS CURIAE IN SUPPORT OF PETITIONERS in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 2689 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 8th day of July, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

Kepse. 0. thaao? Ondine be Obl

Affiant

 

 

Notary Public
41191
